Office of Inspector General


June 28, 2010


MEMORANDUM

TO:      	          USAID/Pakistan Director, Robert J. Wilson

FROM: 	             Acting Regional Inspector General/Manila, William S. Murphy /s/

SUBJECT:	           Review of USAID’s Internally Displaced Persons Programs in Pakistan
                    (Review Report No. 5-391-10-001-S)

This memorandum transmits our final report on the subject review. In finalizing the
report, we considered your comments on the draft review report and have included the
comments in their entirety in appendix II.

Although not an audit, the review report contains four recommendations to assist the
mission in improving various aspects of the program. On the basis of information
provided by the mission in response to the draft report, we determined that final action
has been taken on recommendations 2 and 4. In addition, management decisions have
been reached on recommendations 1 and 3. A determination of final action will be made
by the Audit Performance and Compliance Division upon completion of the planned
corrective actions.

Thank you for the cooperation and courtesy extended to the OIG team during this
review.




U.S. Agency for International Development
                        th
PNB Financial Center, 8 Floor
Roxas Blvd, 1308 Pasay City
Metro Manila, Philippines
www.usaid.gov/oig
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 3 


Review Objective .............................................................................................................. 6


Review Findings.............................................................................................................. 7 


What is the status of USAID’s internally displaced persons programs in Pakistan? 


     USAID Could Improve Its Alternative Methods for
     Monitoring and Evaluation......................................................................................... 13 


     USAID/Pakistan Has Little Assurance That Financial
     Assistance Reached Internally Displaced Persons ................................................. . 17 


Evaluation of Management Comments ....................................................................... 19 


Appendix I—Scope and Methodology......................................................................... 20 


Appendix II—Management Comments........................................................................ 21 

SUMMARY OF RESULTS 

Between August 2008 and September 2009, conflict between the Government of
Pakistan and militant groups in the North-West Frontier Province (NWFP, recently
renamed Khyber Pakhtunkhwa) and the Federally Administered Tribal Areas (FATA)
displaced over 400,000 Pakistani households. While many displaced persons took
shelter with host families, the remaining families took shelter in official Pakistani
Government-run camps (page 3). As the internally displaced persons (IDP) crisis
escalated in May 2009, USAID and other U.S. Government agencies responded quickly
by providing humanitarian assistance to Pakistani IDPs (page 4). USAID provided
humanitarian assistance for the crisis through (1) its Office of Foreign Disaster
Assistance, (2) its Food for Peace program, (3) its Office of Transition Initiatives, and
(4) USAID/Pakistan, its mission in Islamabad (page 4).

The Regional Inspector General/Manila conducted this review to determine the status of
USAID’s IDP programs. This review was conducted concurrently with an audit by the
Department of State (DOS) Office of Inspector General (OIG) of the DOS IDP program
in Pakistan (page 6).

From October 2008 through December 31, 2009, USAID obligated $285.7 million for IDP
programs in Pakistan’s NWFP and FATA regions. Of the amount obligated, more than
$151.8 million was obligated for food aid in response to the emergency. Despite the
deteriorating security situation in Pakistan, USAID responded immediately to provide
rapid assistance through 21 nongovernmental organizations, 5 U.N. organizations, a
contractor, and the Government of Pakistan. USAID’s IDP programs consisted of
support for the immediate needs of people who were displaced and for people returning
to their areas of origin after the conflict in their home areas had diminished (page 7).

However, although USAID has carried out numerous IDP programs in Pakistan,
monitoring and evaluation methods needed improvement.            Specifically, USAID’s
“alternative monitoring” methods—used to monitor activities in dangerous and insecure
areas, such as NWFP and FATA—needed to be strengthened (page 13). In addition,
USAID had not implemented monitoring controls that were meant to provide reasonable
assurance that $44 million in cash transfer funds had actually reached 140,000 IDP
families as intended (page 17).

This report contains four recommendations to address these issues and to help improve
monitoring and evaluation of USAID’s programs in Pakistan (pages 16 and 18). We
recommend that USAID/Pakistan:

•	 Develop and award a procurement instrument to provide third-party monitoring and
   evaluation services to assist mission technical offices that implement IDP programs,
   other mission programs, and in-country Washington-based programs such as those
   carried out by the Offices of Foreign Disaster Assistance and Food for Peace.

•	 Require the Government of Pakistan to provide (1) quarterly expenditure reports for
   IDP disbursements and (2) a list of payments totaling $44 million made to IDPs.




                                                                                       1
•	 Verify the use of funds from the quarterly expenditure reports and the list of IDPs.
   Also, confirm that the Government of Pakistan provided funds to 140,000 families as
   a result of this cash-transfer program.

•	 Conduct spot checks and evaluations on the effectiveness of the cash-transfer
   program.

On the basis of an evaluation of the mission’s response to the draft report, the Office of
Inspector General determined that final action has been taken on recommendations 2
and 4, and management decisions have been reached on recommendations 1 and 3.
The mission’s written comments on the draft report are included in their entirety, without
attachments, as appendix II to this report (page 21).




                                                                                        2
BACKGROUND

Between August 2008 and September 2009, conflict between the Government of
Pakistan (GOP) and militant groups in the North-West Frontier Province (NWFP,
recently renamed Khyber Pakhtunkhwa) and the Federally Administered Tribal Areas
(FATA) displaced over 400,000 households, according to the Pakistani Army’s special
support group.1 The nature and patterns of displacement required a significant response
by the GOP and the international community to provide immediate humanitarian
assistance to internally displaced persons (IDPs) in the face of deteriorating security and
a lack of access to basic services.

                         Figure 1. The NWFP and FATA of Pakistan




                           (Map courtesy of the FATA Development Authority.)

While many displaced persons took shelter with host families, other families took shelter
in official camps set up by the GOP. IDPs registered with the GOP’s National Database
and Registration Authority (NADRA), then NADRA verified whether the displaced
persons were valid beneficiaries for IDP assistance. Once the verification process was
done, NADRA provided the verified lists to the Pakistani Army’s special support group.

1
  The Pakistani Army established the special support group for overall coordination and to arrange
registration, medical cover, camp management, and procurement/supply of relief to the internally displaced
persons.


                                                                                                        3
As of January 2010, 64 percent of displaced households had returned to their home
areas, as conflict in those areas had subsided. Table 1 below summarizes the number
of IDP households that were displaced and the number of households that have
returned.

 Table 1: Summary of Verified IDP Households Displaced and Returned in NWFP
         and FATA Regions of Pakistan as of January 4, 2010 (Unaudited)

                                                             Number of                  Percentage of
  Displaced and Returned Households
                                                            Households                   Households
Number of displaced households verified                       416,598                       100
Number of households that have returned
                                                                  267,240                     64
to areas of origin
Number of households not returned                                 149,358                     36

As the IDP crisis escalated in May 2009, U.S. Government agencies responded quickly
through USAID’s Office of Foreign Disaster Assistance (OFDA)—the lead agency within
the U.S. Government for providing assistance to Pakistani IDPs. From October 2008
through December 31, 2009, the U.S. Government as a whole provided approximately
$403 million in assistance to IDP populations, including support for agriculture and food
security; economic recovery and market systems; health services; logistics and
emergency relief supplies; and nutrition, shelter, safe drinking water, and sanitation
activities. (See figure 2 below.)

      Figure 2. U.S. Government Humanitarian Assistance for IDP Programs 

                       October 1, 2008–December 31, 2009 

                                                $3,000,000 , 1%

                                                                    $44,000,000 , 11%




                                                                                 $70,000,000 , 17%


                            $286,000,000 , 71%




                    Department of Defense
                    Department of Agriculture
                    Department of State's Bureau of Population, Refugees, and Migration
                    U.S. Agency for International Development

As of December 31, 2009, the U.S. Departments of Defense, Agriculture, and State had
provided a total of $117 million in humanitarian assistance funding for Pakistan IDP


                                                                                                        4
programs from October 1, 2008, through December 31, 2009. The Department of
Defense provided $3 million in humanitarian assistance that included halal meals,2 water
trailers, air-conditioned tents, and generators. The U.S. Department of Agriculture
provided $44 million to the U.N. World Food Programme for 56.8 metric tons of food.
The Department of State provided $70 million to the U.N. High Commissioner for
Refugees and the International Committee of the Red Cross for camp registration,
coordination and management, treatment for conflict injuries, protection, emergency
shelter, and nonfood items such as kitchen kits.

As of December 31, 2009, USAID had obligated a total of $285.7 million for IDP
humanitarian assistance and had disbursed $203.7 million. USAID provided direct
assistance to displaced persons by providing safe drinking water, sanitation facilities,
health care services, protection and shelter, emergency food, nonfood items (such as
blankets, pillows, mattresses, cooking stoves, and towels), continuing education for
children and adults, and infrastructure rehabilitation.

USAID’s humanitarian assistance response was provided through (1) its Office of
Foreign Disaster Assistance (OFDA), (2) its Food for Peace (FFP) office, (3) its Office of
Transition Initiatives (OTI), and (4) programs managed by USAID/Pakistan, its mission
located in Islamabad. The first three offices are part of USAID’s Bureau for Democracy,
Conflict, and Humanitarian Assistance (DCHA), located in Washington, DC. The
responsibilities of these three USAID offices and the mission in Islamabad are discussed
below.

1. Office of Foreign Disaster Assistance. OFDA has the responsibility to provide
   foreign disaster assistance and to coordinate the response of the U.S. Government
   to disasters abroad. The authority to provide and coordinate U.S. foreign disaster
   assistance originates with the Foreign Assistance Act of 1961,3 as amended.
   OFDA’s mandate is to save lives, alleviate suffering, and reduce the economic
   impact of disasters. OFDA carries out these responsibilities in coordination with the
   government of the affected country, other donor governments, international
   organizations, U.N. relief agencies, and private voluntary and nongovernmental
   organizations.

2. Food for Peace. FFP has the responsibility to administer the U.S. international food
   assistance program under Public Law (PL) 480 Titles II, III, and V of the Food for
   Peace Act.4 For Pakistan’s IDP programs, FFP provided PL 480 Title II food
   assistance, which provides for a direct donation of U.S. agricultural commodities for
   emergency relief and development.

3. Office of Transition Initiatives. OTI supports U.S. foreign policy objectives by
   helping local partners advance peace and democracy in priority countries in crisis.
   OTI provides fast, flexible, short-term assistance to meet the unique needs of each
   program. OTI’s programs are short term—typically, 2 to 3 years in duration. OTI also
   works closely with missions and host governments to identify programs that


2
  Halal meals are foods that are allowed under Islamic dietary guidelines. 

3
  Public Law 87-195 (codified as amended in scattered sections of 22 U.S.C.)

4
  The Agricultural Trade Development and Assistance Act of 1954, Public Law 83-480, is still often referred

to by its former moniker “Public Law 480.” It was renamed the Food for Peace Act in 2008. 



                                                                                                         5
    complement other assistance efforts and to lay a foundation for longer-term
    development. OTI has had an ongoing program in Pakistan since 2007.

4. USAID/Pakistan. USAID/Pakistan, located in Islamabad, is part of USAID’s Bureau
   for Asia.   The mission carries out programs in the areas of infrastructure,
   humanitarian assistance, education and health services, and governance.

REVIEW OBJECTIVE
The Regional Inspector General/Manila conducted this review as part of its fiscal year
2010 annual plan to answer the following question:

•   What is the status of USAID’s internally displaced persons programs in Pakistan?

Further, we conducted this review concurrently with a DOS OIG audit of the DOS
Bureau of Population, Refugees and Migration’s IDP program in Pakistan. Together,
USAID and DOS provided 88 percent of U.S. Government funding in response to
Pakistan’s IDP crisis from October 1, 2008 through December 31, 2009.

Appendix I contains a discussion of the review’s scope and methodology.




                                                                                       6
REVIEW FINDINGS
As of December 31, 2009, USAID had obligated $285.7 million for internally displaced
persons (IDP) programs in the Pakistan’s North-West Frontier Province (NWFP) and
Federally Administered Tribal Areas (FATA). Amounts obligated and disbursed for these
programs are shown in table 2.

                           Table 2. Status of USAID IDP Programs 

                            October 1, 2008–December 31, 2009 


                                                               Active in           ($ Millions)
             Status of USAID IDP Programs
                                                               CY 2010?       Obligated Disbursed
     Office of Foreign Disaster Assistance (OFDA)
1                                                                 Yes               105.5           47.5
     emergency aid and food procurement5
     Food for Peace (FFP)
2                                                                 Yes                95.3           75.3
     PL 480 Title II food aid
     Office of Transition Initiatives (OTI)
3                                                                 Yes                  9.0           5.0
     IDP assistance
     USAID/Pakistan
4                                                                  No                10.9           10.9
     miscellaneous programs
     USAID/Pakistan
5                                                                 Yes                21.0           21.0
     grant to U.N. World Food Programme
     USAID/Pakistan
6                                                                  No                44.0           44.0
     cash transfer to Government of Pakistan
                                                     Total                          285.7         203.7

Of $285.7 million obligated, more than $151.8 million6 (53 percent) was obligated for
food aid for local and regional food procurement in Pakistan and for PL 480 Title II7 food
assistance in response to the IDP emergency. Despite the deteriorating security
situation in Pakistan, USAID responded immediately to provide rapid assistance through
21 nongovernmental organizations, 5 U.N. organizations, a contractor, and the
Government of Pakistan (GOP). USAID’s IDP activities consisted of support for the
immediate needs of people who were displaced and for people returning to their areas of
origin after the conflict had diminished. The following sections describe in detail the
status of each of the six USAID programs for IDPs.

1. Office of Foreign Disaster Assistance.	 OFDA provided funding of $105.5 million
   for 53 grants and cooperative agreements to 21 implementing partners to help
   Pakistan’s IDPs. These 21 implementing partners consisted of 16 nongovernmental
   organizations and 5 U.N. organizations (see table 3).


5
  The amount disbursed for OFDA programs is defined as funding provided to USAID’s partners through

advance letter of credit payments as of January 2010. The disbursements may not reflect the actual amount

of expenditures made by these partners as of that date. 

6
  Food assistance was provided by three USAID programs: OFDA obligated $35.5 million, Food for Peace

obligated $95.3 million, and USAID/Pakistan obligated $21 million. 

7
  See footnote 4.



                                                                                                       7
Table 3. OFDA Awards to 21 Implementing Partners as of December 31, 2009

                                                                           Obligations
     Implementers
                                                                           ($ Millions)
1    Agency for Technical Cooperation and Development                                2.5
2    American Refugee Committee                                                      2.0
3    Concern                                                                         3.7
4    Catholic Relief Services                                                        2.8
5    International Medical Corps                                                     2.1
6    International Organization for Migration                                        8.9
7    International Rescue Committee                                                  6.4
8    International Relief and Development                                             .7
9    Internews                                                                        .7
10   Merlin                                                                          1.1
11   Mercy Corps                                                                     3.5
12   Oxfam                                                                           4.9
13   Relief International                                                            3.0
14   Save the Children                                                               3.4
15   Samaritan’s Purse                                                                .5
16   U.N. Human Settlements Programme                                                1.4
17   U.N. Children’s Fund                                                           11.8
18   U.N. Office for the Coordination of Humanitarian Affairs                        1.8
19   U.N. World Food Programme                                                      37.2
20   U.N. World Health Organization                                                  2.9
21   World Vision                                                                    4.2
                                                                  Total            105.5

In May 2009, OFDA deployed its Disaster Assistance Response Team (DART) to
Pakistan to support GOP IDP relief efforts, providing specialists trained in a variety of
disaster relief skills to assist the U.S. Embassy and the USAID mission with the
management of the U.S. Government’s response to the IDP crisis. The DART team
managed the U.S. humanitarian response and coordinated with the humanitarian
community. Also in May, OFDA activated a Washington-based response management
team to support the DART. In July 2009, OFDA replaced the DART by establishing a
field office at USAID/Pakistan to continue monitoring the situation and to respond to
evolving humanitarian needs. OFDA provided immediate assistance to displaced people
by providing safe drinking water, sanitation and hygiene facilities, health care services,
protection and shelter, nonfood items, and infrastructure rehabilitation. In addition to
providing assistance to those who had been displaced, OFDA also provided assistance
to those people returning to their areas of origin after the conflict had subsided. This
assistance included:

•	 Reestablishing and facilitating access to essential services in the areas of health,
   water and sanitation, and infrastructure (repairing roads, irrigation channels,
   electrical systems, and communications).
•	 Ensuring appropriate transitional shelter.
•	 Distributing seeds, tools, and other goods and services to help revive socioeconomic
   activities.
•	 Providing temporary employment for women and men (e.g., cash-for-work
   programs).


                                                                                           8
As part of the $105.5 million obligated, OFDA contributed $37.2 million to the U.N. World
Food Programme, including funds for 66,000 metric tons of emergency food assistance
purchased locally and regionally in Pakistan and distributed throughout the NWFP and
FATA regions.




          OFDA activities supported an implementing partner’s health clinic at a camp
          in the Swabi District in the NWFP. (Photo taken by OFDA staff in June 2009.)

2. Food for Peace.	 FFP awarded a grant of $95.3 million to the U.N. World Food
   Programme for PL 480 Title II food assistance in the NWFP and FATA regions.
   According to the grant agreement, the FFP was to contribute a total 106,950 metric
   tons of wheat flour, split yellow peas, and oil to meet the needs of up to 2.4 million
   IDPs in Pakistan during the period through December 2010.




    A U.N. World Food Programme center distributed food aid supported by Food for Peace in 

            Swabi District in the NWFP. (Photo taken by OFDA staff in January 2010.) 





                                                                                               9
3. Office of Transition Initiatives.	 OTI obligated $9 million for IDP activities in the
   NWFP and FATA regions to support the immediate needs of people who were
   displaced and the people returning to their areas of origin after the conflict had
   diminished. As of January 2010, OTI had completed 114 of 185 planned IDP
   projects (62 percent) in Pakistan’s NWFP and FATA regions, using two implementing
   partners. OTI continues supporting GOP efforts to reestablish a presence in conflict-
   affected areas. The 185 OTI projects consisted of:

•	 170 small infrastructure and media projects, with estimated average costs of $43,000
   each. Projects included repairing water supply systems, electrical systems, and
   schools and expanding radio programming and coverage.

•	 9 projects that purchased 9,200 kits containing nonfood items, such as cooking pots
   and pans, and 9,320 sets of pillows, blankets, and mats for distribution to IDPs.

•	 5 projects that purchased 22 generators, 1,000 fans, 20 transformers, and 200 water
   coolers.

•	 One project for seven four-wheel-drive vehicles rented to GOP officials so that they
   could travel to IDP camps and coordinate relief activities.




            OTI provided nonfood-item kits that included coolers and pots and pans
             such as these inside a tent at a camp in Mardan District in the NWFP.
                         (Photo taken by an OTI partner in July 2009.)




                                                                                     10
4. USAID/Pakistan Miscellaneous Programs.	 USAID/Pakistan implemented IDP
   activities with a total value of over $10.9 million through four existing mission
   programs. USAID/Pakistan’s IDP activities began in June 2009 and continued
   through December 2009. The mission responded through its existing development
   programs operating in the NWFP, FATA, and other areas in Pakistan to provide
   assistance. Five nongovernmental organizations and one contractor implemented
   programs that included two livelihood programs, two health programs, one education
   program, and one capacity-building program.           These implementing partners
   supported IDP activities that included giving computers and logistical support to the
   GOP emergency-response personnel.            In addition, USAID/Pakistan provided
   immediate assistance to displaced persons by providing health care services, short-
   term employment, protection and shelter, nonfood items such as mattresses, quilts,
   and candles, and continuing education for children and adults. See table 4 below for
   detailed information on USAID/Pakistan’s IDP activities.

          Table 4: IDP Activities Completed by USAID/Pakistan Programs

Mission Program                                     Activities
                     •   10,000 nonfood-item kits provided in lower FATA.
                     •   22,836 household-restoration kits provided (included wheel-
                         barrows, pickaxes, spades, saws, gloves) in upper FATA.
Livelihoods
                     •   2,330 tents provided to two camps in upper FATA.
programs (2)
                     •   13,000 IDPs employed in cash-for-work jobs such as
                         maintenance crews for site cleaning and construction of drains
                         in upper FATA IDP camps.
                     •   24 new ambulances given to 7 NWFP districts.
Health programs      •   10 used vehicles converted into ambulances.
(2)                  •   48 health day events for IDPs.
                     •   6 health facilities provided with equipment and furniture.
                     •   4 birthing centers and 2 mobile medical units established.
                     •   54 temporary schools established in 27 camps in July 2009.
                         By September 2009, 18 schools remained. A total of 23,176
                         displaced students received education.
                     •   668 students received computer literacy classes in 14 IDP
                         camps.
Education program
                     •   496 women were taught to use sewing machines and earned
                         over $20,000 by stitching uniforms.
                     •   369 men enrolled in electrician and plumbing classes.
                     •   12,006 kitchen kits, 11,670 first-aid kits, and 12,034 hygiene
                         kits provided to 27 camps.
Capacity-building    •   2 rental vehicles and computer equipment provided to GOP
program                  officials.

5. USAID/Pakistan Grant to the U.N. World Food Programme.	 USAID/Pakistan
   awarded a $21 million grant in October 2009 to the World Food Programme for
   39,000 metric tons of wheat and oil purchased locally in Pakistan. According to the
   grant agreement, the food assistance would benefit IDPs in the NWFP and FATA
   regions. The grant agreement had an ending date of April 30, 2010.




                                                                                     11
6. USAID/Pakistan Cash Transfer to the Government of Pakistan.	 USAID/Pakistan
   signed a cash-transfer grant agreement in September 2009 with Pakistan’s Ministry
   of Economic Affairs and Statistics for a $174 million emergency cash-transfer
   program with three separate cash transfers: (1) $44 million in budgetary support for
   IDP families, (2) $85 million in budgetary support for low-income families across
   Pakistan, and (3) $45 million in budgetary support for university and technical
   education in NWFP, serving students from FATA and in other vulnerable areas. The
   second and third cash transfers did not relate to IDP activities.

Before the $44 million cash transfer for IDPs was disbursed, USAID/Pakistan completed
a preaward assessment of the host government and private units involved in the IDP
program. The preaward assessment included tests of compliance for cash transfer
processes between bank accounts, procedures to ensure beneficiaries were valid for
IDP assistance, and payment systems to disburse monies to IDPs using a debit card
system. The assessment concluded that these units’ policies and procedures were
sufficient—and highlighted program risks and suggested actions to address these risks.

Following this preaward assessment, USAID/Pakistan disbursed the $44 million in
November 2009 to support the GOP budget for IDP families. The cash-transfer
agreement was intended to provide budgetary support to finance GOP payments to
140,000 IDP families—amounting to approximately $312 for each such family.
According to the grant agreement, verified IDP families received a debit card with a
private pin code. Once the debit card was activated, IDP card holders could withdraw
the $312 in local currency from automated teller machines. The GOP had begun
disbursing funds to IDP families in June 2009. Initially, the GOP had disbursed funds to
285,000 registered IDP families. However, registration continued and the GOP
estimated that the number of registered IDP families would exceed 400,000 by August
2009. According to the mission, the GOP then provided such additional funding to IDP
families in the expectation that the $44 million in USAID funding would be subsequently
provided to the GOP.

Although USAID had carried out numerous IDP activities in Pakistan, monitoring and
evaluation methods needed improvement. Specifically, USAID’s “alternative monitoring”
methods used to monitor activities in dangerous and insecure areas, such as NWFP and
FATA, needed to be strengthened. In addition, USAID/Pakistan had not implemented
monitoring controls that were meant to provide reasonable assurance that the $44
million in cash-transfer funds had actually reached IDP families. These two topics are
discussed below.




                                                                                     12
USAID Could Improve Its Alternative Methods
for Monitoring and Evaluation

 Summary. Guidance applicable to USAID’s Automated Directives System (ADS)
 identifies six alternative monitoring methods that missions designated as a high-threat
 environment may use to ensure sufficient USAID oversight of activities. The guidance
 authorizes using one or more of the six alternative methods. This review focused on
 third-party monitoring in Pakistan since it is one of the most effective methods to
 monitor program results in high-threat environments. USAID implemented third-party
 monitoring in only one of its six IDP programs. This occurred primarily because
 USAID/Pakistan had not established a missionwide third-party monitoring unit that
 could be used by any of the USAID program offices in Pakistan. Consequently,
 without an instrument to easily employ third-party monitoring in high-threat
 environments in Pakistan, USAID did not verify program performance or consistently
 validate results first hand for its IDP program activities.

Guidance listed on USAID’s Web site as applicable to ADS 202, “Achieving,” includes
Interim Update 09-07, ”Monitoring USAID Activities in High-Threat Environments,”
effective October 1, 2008. The update identifies alternative methods to monitor USAID
activities in high-threat environments.    The USAID Administrator has approved
designation of USAID/Pakistan as a high-threat environment because program
managers have only a limited ability to conduct site visits and verify program
performance, meet with implementing partners and beneficiaries, and observe program
activities first hand—especially in the dangerous and insecure areas of NWFP and
FATA, where most IDP assistance is being provided. This guidance identifies six
alternative monitoring methods that missions designated as a high-threat environment
may use to ensure sufficient USAID oversight of activities. The six methods are:

1. 	 Using local and/or third-party monitoring, usually with host country personnel who
     can readily travel in high-threat areas.
2. 	Requiring photographic evidence of accomplishments in periodic performance
     reports.
3. 	Engaging other U.S. Government agencies that may be working in the region to
     validate performance.
4. 	 Using other technology for oversight, such as employing satellite imagery to verify
     performance.
5. 	Establishing flexible targets and results to allow implementing partners to set
     quarterly project results rather than end-of-project targets.
6. 	 Delegating authority to a lead partner to act on behalf of one or more other partners
     to verify results.

The ADS authorizes missions designated as “high-threat environments” to use one or
more of the six alternative methods. However, this review focused on third-party
monitoring in Pakistan since it is one of the most effective methods to monitor program
results in high-threat environments and since the other five methods have limited
application and were in fact little used by the mission.

USAID implemented third-party monitoring in only one of its six IDP programs. While
USAID’s Office of Transition Initiatives (OTI) used third-party monitoring services to
oversee its IDP activities, the other five USAID IDP programs did not. USAID could


                                                                                       13
strengthen its monitoring through the use of third-party monitoring. Table 5 identified the
IDP activities that did or did not use third-party monitoring.

      Table 5. USAID Major IDP Programs Using Third-Party Monitoring Services

                                                                                             Use of Third-
                         USAID Major IDP Programs                                               Party
                                                                                              Monitoring
    USAID/OFDA Emergency Aid and Food Procurement                                                 No
    USAID/FFP PL Title II Food Aid                                                                No
    USAID/OTI IDP Assistance                                                                     Yes
    USAID/Pakistan Miscellaneous Programs                                                         No
    USAID/Pakistan Grant to U.N. World Food Programme                                             No
    USAID/Pakistan Cash Transfer to GOP                                                           No

To OTI’s credit, it engaged a local Pakistani nongovernmental organization to staff a
third-party monitoring unit that provided onsite monitoring and evaluations of expected
outputs for at least 39 of its projects. For example, the monitoring unit verified that a
project had, as required, installed 15 electrical transformers in 10 IDP camps. In another
OTI project, which provided nonfood-item kits, the monitoring unit conducted a site visit
to an IDP camp in the Malakand District to inspect and verify that nonfood-item kits had
been distributed.

Third-party monitoring did not occur in the other five USAID IDP programs, primarily
because USAID/Pakistan had not established a missionwide third-party monitoring unit
that could be used by any USAID program office in Pakistan, even though the mission
itself had identified this lack as a “significant deficiency” in its annual Federal Managers’
Financial Integrity Act (FMFIA) report.8 According to its FMFIA report certifications for
2008 and 2009, USAID/Pakistan had concluded that it needed to strengthen its
monitoring and evaluation capacities by employing third-party services to mitigate its
inability to monitor its programs. However, as of fiscal year 2009, little progress9 had
been made to enable USAID technical teams to easily acquire third-party monitoring and
evaluation services. In addition, USAID headquarters has repeatedly reported in its
Agency-wide FMFIA reports a significant deficiency in the Agency’s inability to
implement and monitor activities in high-threat environments worldwide.
In spite of the absence of third-party monitoring and evaluation services for the mission’s
programs, USAID technical teams devised other methods to gather information to
monitor IDP programs. Various monitoring and evaluation methods and tools were
employed, such as weekly and monthly meetings of implementing partners with the
technical teams and activity managers, quarterly performance reports with some photos
submitted to USAID by implementing partners, daily phone conversations and e-mails,
seminars with partners to evaluate assessments of progress, and meeting with GOP
counterparts to discuss humanitarian assistance. And finally, OTI used its Pakistani staff
to conduct onsite monitoring and evaluation.

8
  To support the FMFIA annual certification, each mission must provide an annual certification on the overall
adequacy and effectiveness of internal controls to the next management level. The certification includes a
description of control deficiencies that could adversely affect the mission’s ability to meet its internal control
objectives. These are categorized as significant deficiencies.
9
  USAID/Pakistan’s FATA programs did provide third-party monitoring for specific FATA programs related to
health and livelihood. However, this contractor did not monitor IDP activities.


                                                                                                              14
However, without an instrument to easily employ third-party monitoring in high-threat
environments in Pakistan, USAID did not verify program performance, observe program
activities, or consistently validate results first hand for its IDP program activities. From
May 2009 through December 2009, for programs that did not use third-party monitoring
services, only five monitoring trips of IDP programs were made—an average of one
monitoring trip per program. Table 6 illustrates the number of trips conducted by USAID
technical officials for IDP programs that did not use third-party monitors. As summarized
in the table, 3 programs had no monitoring trips, Food for Peace had 1, and the Office of
Foreign Disaster Assistance had 4—a number that, although higher than that of the
other programs listed, is not sufficient given the size of OFDA’s IDP program and the
number of partners implementing the program (21).

                        Table 6. USAID Monitoring Trips Completed 

                                   May–December 2009 


                                                                    Number of
     IDP Programs Not Using Third-Party Monitoring                  Monitoring          Obligated
                                                                      Trips            ($ Millions)
USAID/OFDA Emergency Aid and Food Procurement                           4                 105.5
USAID/FFP10 Title II Food Aid                                           1                  95.3
USAID/Pakistan Miscellaneous Programs                                   0                  10.9
USAID/Pakistan Grant to U.N. World Food Programme                       0                  21.0
USAID/Pakistan Cash Transfer to GOP                                     0                  44.0

Even though USAID officials made a total of 5 trips to monitor IDP activities, the visits
were not sufficient to verify outputs and confirm results achieved while working with 21
nongovernmental organizations, 5 U.N. organizations, 1 contractor, and the GOP and
covering a portfolio of approximately $277 million. Many activities, such as cash-for-
work projects, have a high degree of inherent risk as such programs dispense cash and
may need more monitoring to ensure that their funds are being used as intended. In
addition, timely verification and validation are critical to ensure that a program is working,
so that technical managers can take action to improve implementation. Furthermore,
routine monitoring and evaluation are necessary to verify compliance with award
requirements, to evaluate program impact, and to take timely action to improve
performance.

Since USAID/Pakistan has not addressed the significant deficiency of its inability to
monitor its programs in high-threat areas, the mission’s technical offices have only a
limited ability to conduct such monitoring without a missionwide instrument to easily
procure third-party monitoring services. Furthermore, if the mission does not establish a
missionwide instrument to procure such services, each program will have to attempt to
do so on its own. For example, to monitor and evaluate three cash-transfer components
in USAID/Pakistan’s $174 million cash-transfer program, USAID is planning to award
several contracts to ensure that funding reached intended beneficiaries. Since there is
no missionwide instrument to easily procure third-party monitoring and evaluation
services, USAID will experience inefficiencies by duplicating acquisition processes and
incurring additional costs to award, administer, and monitor multiple contractors.

10
   OFDA and FFP officials made two joint monitoring trips in January and March 2010. This review did not
include these trips since the date was beyond the scope of the review.


                                                                                                     15
Notably, USAID has addressed similar deficiencies in monitoring and evaluation at other
missions working in high-threat environments, including Iraq and Afghanistan. To
address these deficiencies, both missions have contracted for missionwide third-party
monitoring and evaluation services. Specifically:

•	 USAID/Iraq instituted a third-party monitoring and evaluation program that started in
   2003 and continues today. The third-party provider focused on monitoring and
   evaluating ongoing activities to provide USAID/Iraq with regular feedback on
   program performance.

•	 USAID/Afghanistan instituted a third-party monitoring and evaluation program that
   began in 2006 and continues today. This program provided third-party monitoring
   and evaluation coverage for all its mission technical offices.

These monitoring programs in Iraq and Afghanistan not only provided third-party
monitoring capability, they also assisted technical offices and implementing partners in
developing and updating performance monitoring plans; in monitoring program results
against stated indicators in the missions’ operational plan; and in ensuring that data
quality assessments were conducted for the indicators on which the programs are
reporting. As such, in addition to the recommendation we are making below to develop
and award a procurement instrument to obtain third-party monitoring and evaluation
services, we suggest you also consider the information and recommendations contained
in our Audit of USAID/Iraq’s Monitoring and Evaluation Performance Program (report
number E-267-08-004-P, dated July 3, 2008).

USAID/Pakistan, OFDA, and FFP need to employ third-party monitoring services that
are readily available for their technical offices. USAID has recognized that they need to
establish a missionwide monitoring and evaluation contract and have taken steps to do
so. During the review, the mission hired a senior program officer and designated
another staff member as advisers for its monitoring and evaluation program. Also, the
mission is developing a statement of work for a missionwide monitoring and evaluation
contract. Even though the mission has taken initial steps toward procuring third-party
monitors and evaluators, which can be used by any program in the mission, we
recommend the following:

   Recommendation 1. We recommend that USAID/Pakistan develop and award
   a procurement instrument to provide third-party monitoring and evaluation
   services to assist mission technical offices in implementing internally displaced
   persons programs, other mission programs, and in-country Washington-based
   programs such as those carried out by the Offices of Foreign Disaster Assistance
   and Food for Peace.




                                                                                       16
USAID/Pakistan Has Little Assurance That Financial
Assistance Reached Internally Displaced Persons

 Summary. The grant agreement for the $44 million cash transfer for IDP families
 identified four controls to be implemented by the mission and the GOP. However,
 6 months after the cash transfer was made to the GOP, neither the mission nor the
 GOP had implemented any of the controls that were meant to provide reasonable
 assurance that the funds had actually reached IDPs. USAID/Pakistan did not
 implement the four monitoring controls because the mission’s technical representative
 did not take prompt action to issue an implementation letter, which would have led the
 GOP to provide the required documentation to the mission. Because the mission did
 not comply with the agreement’s monitoring requirements, inherent program risks
 were not mitigated by implementing required controls. Consequently USAID has little
 assurance that cash-transfer funds actually reached displaced families.

The grant agreement for the $44 million cash transfer for IDP families identified four
controls11 to be implemented by the mission and the GOP to ensure that agreement
funds were used as intended. However, 6 months after the cash transfer was made to
the GOP, on November 19, 2009, neither the mission nor the GOP had implemented any
of the controls that were meant to provide reasonable assurance that the agreement
funds had actually reached IDPs. The cash-transfer agreement had intended to provide
budgetary support to finance GOP payments to 140,000 IDP families—amounting to
approximately $312 for each such family. The families would not have been supported
had this funding not been provided.

The four controls outlined in the agreement required (1) the GOP to give USAID
quarterly expenditure reports on the uses of funds as well as the status of the separate
bank dollar account until the dollars were fully withdrawn; (2) the GOP to give USAID a
list of IDP families showing payments to those families totaling $44 million; (3) USAID to
verify from expenditure reports and beneficiary listings that the funds disbursed had
reached displaced families; and (4) USAID to conduct spot checks and evaluations on
the effectiveness of the cash transfer. In addition, on the basis of the cash-transfer
agreement, the mission’s agreement officer’s technical representative was to correspond
with the GOP’s Ministry of Economic Affairs and Statistics through an implementation
letter12 that was to provide additional reporting requirements and formats.

However, USAID/Pakistan did not ensure that these four controls were carried out after
the $44 million was disbursed in November 2009. Specifically, the mission did not:

11
   A fifth control requires USAID to have the Auditor General of Pakistan conduct an audit to validate the flow
of funds from the Ministry of Finance through to the beneficiaries. According to the controller’s office, audit
work will begin after the Pakistani fiscal year ends in June 2010. The grant agreement requires that the
Auditor General of Pakistan audit (1) the separate dollar account; (2) the local currency account derived
from the dollar account; and (3) the ultimate receipt of funds by the IDPs. OIG has a memorandum of
understanding with the Auditor General to do audits of USAID funding provided to the GOP and will oversee
this audit work.
12
   An implementation letter is a formal correspondence between USAID and another party following a prior
formal agreement to obligate funding for that agreement. Implementation letters serve several functions,
including providing more detailed implementation procedures and providing details on terms of an
agreement.


                                                                                                           17
1. 	 Require the GOP to provide quarterly expenditure reports.
2. 	 Require the GOP to provide a list of the 140,000 IDP families that received funds.
3. 	Verify the use of funds provided to 140,000 families to help that ensure funding
     reached IDP families.
4. 	 Conduct spot checks and evaluations on the effectiveness of the cash transfer.

USAID/Pakistan did not implement these monitoring controls because the mission’s
technical representative did not take prompt action to issue an implementation letter that
would have led the GOP to provide the quarterly report and list of IDP families. Hence
USAID/Pakistan did not carry through with verification, spot checks, or an evaluation of
effectiveness. We believe that the mission should have started monitoring and
evaluation controls immediately upon disbursement of the funds instead of waiting until
almost a half year after funds had been disbursed, as many of the IDP families who
received payments have since left their camps to return to their places of origin. When
the IDPs relocate, verification of their funds becomes more difficult.

Because the mission did not comply with the agreement’s monitoring requirements,
inherent risks were not mitigated by implementing required controls. The failure to take
timely action to implement controls over the November 2009 $44 million cash
disbursement left USAID with little assurance that the funds had actually reached
displaced families.

To help the mission ensure that required monitoring and evaluations are carried out, we
are making the following recommendations:

   Recommendation 2.          We recommend that USAID/Pakistan require the
   Government of Pakistan to provide (1) quarterly expenditure reports for internally
   displaced persons disbursements and (2) a list of payments totaling $44 million
   made to internally displaced persons.

   Recommendation 3. We recommend that USAID/Pakistan verify the use of
   funds from the quarterly expenditure reports and the list of internally displaced
   persons and confirm that the Government of Pakistan provided funds to at least
   140,000 families as a result of this cash-transfer program.

   Recommendation 4. We recommend that USAID/Pakistan conduct spot checks
   on and evaluations of the effectiveness of the cash-transfer program.




                                                                                        18
EVALUATION OF
MANAGEMENT COMMENTS
On the basis of an evaluation of the mission’s response to the draft report, the Office of
Inspector General determined that final action has been taken on two recommendations,
and management decisions have been reached on two recommendations. The status of
each of the four recommendations is shown below.

Final action—recommendations 2 and 4.

Management decision—recommendations 1 and 3.

For recommendation 1, the mission agreed with the recommendation and has begun
consulting with technical teams and drafting a statement of work for a missionwide
monitoring and evaluation contract. The target date for award of the monitoring and
evaluation procurement instrument is December 2010.

For recommendation 3, the mission agreed with the recommendation and plans verifying
and confirming the use of funds after the receipt of the required reports from the
Government of Pakistan. The mission expects to receive a completion report in the form
of a list of approximately 140,000 beneficiaries for USAID's contribution by July 2010
and to verify this completion report by performing checks on a sample of beneficiaries by
December 2010.

We consider that management decisions have been reached on recommendations 1
and 3. A determination of final actions will be made by the Audit Performance and
Compliance Division upon completion of the planned corrective actions.

The mission’s written comments on the draft report are included in their entirety, without
attachments, as appendix II to this report.




                                                                                       19
                                                                           Appendix I



SCOPE AND METHODOLOGY

Scope
The Regional Inspector General/Manila (RIG/Manila) conducted this review of USAID’s
internally displaced persons (IDP) programs in Pakistan. This review was not an audit.
The purpose of this review was to determine the status of USAID’s IDP programs in
Pakistan. There were no prior audits associated with the areas reviewed. We
conducted this review at USAID/Pakistan from February 9 to May 14, 2010, in
Islamabad, Pakistan. We also corresponded with USAID’s Office of Foreign Disaster
Assistance (OFDA), Food for Peace (FFP), and Office of Transition Initiatives (OTI)
located in USAID/Washington. In addition, OFDA and OTI had established field offices
at the mission in Islamabad. The review focused on USAID’s IDP programs performed
from October 1, 2008, through December 31, 2009, with updates through May 2010.
Further, we conducted this review concurrently with the Department of State OIG during
its audit of the Bureau of Population, Refugees, and Migration’s IDP program in
Pakistan. Together, USAID and the Department of State provided 88 percent of U.S.
Government funding in response to Pakistan’s IDP crisis from October 1, 2008, through
December 31, 2009.

Methodology
To answer the review objective, we interviewed officials and analyzed relevant
documentation on six IDP programs carried out by OFDA, FFP, OTI, and
USAID/Pakistan. These discussions and documents covered USAID’s monitoring and
evaluation guidance, background, organizations, financial reports, staffing
responsibilities, Federal Managers’ Financial Integrity Act reviews, preaward
assessments, third-party monitoring reports, progress reports, and agreements between
USAID and the implementing partners. For USAID’s IDP programs that took place from
October 1, 2008, through December 31, 2009, the review analyzed the status of the
programs implemented; determined the funds obligated and disbursed; and examined
the methods used to monitor and evaluate in high-threat environments.




                                                                                   20
                                                                            Appendix II




MANAGEMENT COMMENTS


MANAGEMENT COMMENTS
MEMORANDUM

Date: 	        June 16, 2010

To: 	          Bruce N. Boyer
               RIG/Manila

From:	         Robert J. Wilson /s/
               Mission Director

Subject:	      Management Comments
               Review of USAID’s Internally Displaced Person Programs in Pakistan.
               (Report No. 5-391-10-XXX-S)

Reference: 	   Draft review report No 5-391-10-XXX-S dated June 04, 2010.

In response to the referenced draft review report, please find below the management
comments on the four recommendations included therein:

Recommendation 1. We recommend that USAID/Pakistan develop and award a
procurement instrument to provide third-party monitoring and evaluation services
to assist mission technical offices in implementing internally displaced persons
programs, other mission programs, and in-country Washington-based programs
such as those carried out by the Offices of Foreign Disaster Assistance and Food
For Peace.

Management Comments:

Mission management concurs with this recommendation and the following steps have
been started to address the recommendation.

    •	 A Foreign Service National (FSN) has been designated as the Monitoring and
       Evaluation (M&E) Advisor in the Program Resource Management Office (PRM).
    •	 The PRM office established and mission approved a new US Personal Services
       Contractor/Third Country National Senior Program Advisor position for M&E.
       While initial recruitment efforts proved unsuccessful, primarily due to visa
       problems, the position has been re-advertised and the target date for filling the
       position is November 2010.



                                                                                      21
   •	 PRM is currently consulting with technical teams and drafting a statement of work
      for a Mission-wide M&E contract. The target date for award of the procurement
      instrument is December 2010.
   •	 A new Mission strategy was developed in December and incorporated as the
      basis for the report to Congress on the implementation of the Kerry Lugar
      Berman legislation, and will also serve as the basis for finalizing measures and
      performance indicators.. PRM is currently preparing a results framework to
      provide the basis for the development of Performance Measurement Plans
      (PMP).

Recommendation 2. We recommend that USAID/Pakistan require the
Government of Pakistan to provide (1) quarterly expenditure reports for
internally displaced persons disbursements and (2) a list of payments totaling
$44 million made to internally displaced persons.

Management Comments:

Mission management concurs with the recommendation as the Mission specifically
required the GOP in the Assistance Agreement under Section 7.4. Monitoring and
Reporting (Annex 1) to provide quarterly reports and a list of beneficiaries to USAID for
its full contribution. The Mission has also taken steps to remind the GOP of these
requirements. A draft of an Implementation Letter addressing these requirements was
delivered to Economics Affairs Division (EAD) for discussion by hand on April 20, 2010.
The letter was hand delivered again on June 10, 2010 as an additional reminder. In
addition to going through the official reporting contact at EAD, the Mission also reminded
NADRA, the GOP entity that has the most relevant data for monitoring the IDP cash
transfer program, of the quarterly reporting requirements, both in person and by email on
February 12, 2010. Mission will continue to follow up on these issues until the required
reports are provided.

Therefore, we request the closure of this recommendation upon report issuance.

Recommendation 3. We recommend that USAID/Pakistan verify the use of
funds from (1) the quarterly expenditure reports and (2) the list of internally
displaced persons and (3) confirm that the Government of Pakistan provided
funds to at least 140,000 families as a result of this cash-transfer program.

Management Comments:

Mission management concurs with the recommendation. The use of the funds will be
verified and confirmed after the receipt of the required reports from the GOP. The
Mission expects to receive a completion report in the form of a list of approximately
140,000 beneficiaries for USAID's full contribution by July 2010 and to verify this
completion report by performing checks on a sample of beneficiaries by December 2010.
Mission has also prepared a statement of work for the audit of the cash transfer program
to be done by the Supreme Audit Institution (SAI) of Pakistan. Also the activity manager
has drafted the statement of work for the verification of the funds disbursed to IDPs
using the existing BPA mechanism with RIG approved CPA firms.




                                                                                       22
Recommendation 4. We recommend that USAID/Pakistan conduct spot checks
on and evaluations of the effectiveness of the cash-transfer program.

Management Comments:

Mission management concurs with the recommendation. USAID hired a consultant to
examine the operations and impact of the cash transfer program and to determine the
extent to which the funds reached the intended beneficiaries and received a report
(Annex 2) titled Cash Transfer Monitoring Program on June 04, 2010. Therefore, we
request the closure of this recommendation upon issuance.

Atch: a/s

CC:    ASIA/SCAA:          Andrew Plitt




                                                                                23
U.S. Agency for International Development 

        Office of Inspector General 

      1300 Pennsylvania Avenue NW 

          Washington, DC 20523 

           Tel.: 202—712—1150 

           Fax: 202—216—3047 

            www.usaid.gov/oig

